20-

No!

In The

mu

Supreme Court of the United States

In the Matter of the Estate of:
Erline Hall Phillips, an Incapacitated
and Protected Person.

FILED
MAY 0 I 2021

CHERIE PHILLIPS

Petitioner
v.
CHARO ROWLEY
Respondent

On Petition for Writ of Certiorari
To the IDAHO COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI

Rev. Cherie Phillips, Stoic Priest
1926 Madera St., Apt. 209
Waukesha, Wl 53189
(262) 309-6178

sn

No.

IN THE
SUPREME COURT OF THE UNITED STATES

In the Matter of the Estate of:
Erline Hall Phillips, an Incapacitated
and Protected Person.
CHERIE PHILLIPS
- PETITIONER
v.
CHARO ROWLEY

-RESPONDENT

On Petition for Writ of Certiorari
To the IDAHO COURT OF APPEALS
PETITION FOR WRIT OF CERTIORARI

Rev. Cherie Phillips, Stoic Priest
1926 Madera St., Apt. 209
Waukesha, Wl 53189
(262) 309-6178

QUESTIONS PRESENTED
1. Whether the Idaho Courts denied the fairness and justice of Due Process
when my pro se pleadings were not reviewed and were summarily dismissed while the
judges acted as attorneys in the Respondent's defense and with legal strategy.
2. Whether the State of Idaho demanding Hospice as "mandatory" under threat
of charging me with a "Felony" and enforced by violent martial law and kidnapping
"healthy" family members from home, while the Federal Statutes clearly state that
Hospice is "Optional" and may be withdrawn at any time, violates the US Constitution.
3. Whether Respondent Charo Rowley's Court Visitor Report/Supplemental
Order, which supported the State of Idaho in completing the Death Penalty of my
Mother, being unconstitutional and illegal under Federal, State, and County laws,
precludes Ms. Rowley's payment for services rendered.
4. Whether Respondent Charo Rowley's Court Visitor Report, being a
Supplemental Court Order, in full force and effect, which denied my Guardianship rights
that had been granted by the Court, and, instead, granted St. Luke's Hospital (SLH) a
Shadow Guardianship overpowering all my Guardianship rights, being unconstitutional
and illegal under Federal, State and County laws and statutes, precludes its
enforcement for payment of Court Visitor services to Ms. Charo Rowley.
5. Whether Respondent Charo Rowley's breach of statutory duties in violation
and noncompliance with governing statutory authority, being unconstitutional and illegal
under Federal, State and County laws and statutes, preclude its enforcement for
payment for services that she did not legally render.
i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
None.

ii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

39

CONCLUSION

40

INDEX TO APPENDICES
APPENDIX A:

Final Order of the Idaho Court of Appeals
Unpublished Opinion: July 22, 2020

APPENDIX B:

Order Denying Petition for Review by the Idaho Supreme Court
February 2, 2021

APPENDIX C:

Opinion on Appeal by District Court of Idaho: October 24, 2019

APPENDIX D:

Order Requiring Payment of Visitor Fees by the Magistrate Court
June 6, 2019

APPENDIX E:

Court Visitor's Report by Charo Rowley (Webster)

APPENDIX F:

Idaho Code: I.C. 15-5-303

APPENDIX G:

Idaho Code: I.C. 15-5-314

APPENDIX H:

Human Rights under the US Constitution

APPENDIX I:

Nuremberg Code

iii

APPENDIX J:

Title 18, USC, §242
Deprivation of Rights under Color of Law

APPENDIX K:

Photo of my Precious Mother at St. Luke's Hospital, Boise,Idaho
Board Jammed Against Throat

APPENDIX L:

Photo of my Precious Mother at St. Luke's Hospital, Boise,Idaho
Being Experimented upon
and Forcibly Euthanized

APPENDIX M:

Photo of my Precious Mother at St. Luke's Hospital, Boise,Idaho
Being Experimented upon
and Forcibly Euthanized

APPENDIX N:

Photo of my Precious Mother - Arms
Dying from Experiments and Forcible Euthanasia

APPENDIX O:

Photo of my Precious Mother - Hip
Dying from Experiments and Forcible Euthanasia

APPENDIX P:

Photo of my Precious Mother - Death: December 2, 2016
Died from inhumane torturous, injurious, extremely painful
Experiments and Forcible Euthanasia
with Starvation, Dehydration and Opiod Narcotics
and died as a direct and proximate result

iv

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Abdullahi v. Pfizer, Inc.
562 F. 3d 163 (2009)

37

Cruzan v. Director, Mo. Dept, of Health
497 US 261 (1990), Supreme Court

35

Flores, 414 F.3d at 250

36

Guardianship of Pescinski
67 Wis.2d 4 (1975), 226 NW 2d 180 (1975) Wis: Supreme Court

35

Gilbert v. State
487 So. 2d 1185 (1986), Fla: Dist. Court of Appeals, 4th Dist.

34

Living Centers of Texas, Inc. v. Penalver
217 SW 3d 44 (2006) Tex: Court of Appeals, 4th Dist.

34

Louie M. Schexnayder, Jr. v. Darrel Vannoy, Warden
589 US _ (2019)

39

Matter of Brownstein v. Morris
25 Misc. 2d 731 (1960) NY: Supreme Court.

38

Matter of Conroy
486 A. 2d 1209 (1985) NJ: Supreme Court

15, 34, 35

Matter of Zornow
919 NYS 2d 273, 31 Misc. 3d 450 (2010) NY: Supreme Court

34

Monroe v. Pape
365 US 167 - Supreme Court 1961

33

Nuremberg Trials, Vol 1

36 37

Nuremberg Trials, Vol 2

36, 37

v

Perna v. Pirozzi
supra, 92 NJ 446, 459-65 (1983)

33

Sampson v. FRG
250 F.3d 1145, 1150 (7th Cir.2001)

37

Siderman de Blake v. Republic of Arg.
965 F.2d 699, 715 (9th Cir.1992)

37

State v. Wells
864 P. 2d 1123 (1993), 124 Idaho 836, Idaho: Supreme Court

34

United States v. Classic
313 US 299, § 20 of the Criminal Code, 18 USC § 242

32

United States v. Stanley
483 U.S. 669, 687, 107 S.Ct. 3054, 97 L.Ed.2d 550 (1987)

37

United States v. Yousef
327 F.3d 56, 100-01 (2d Cir.2003)

36

Warmbier v. Democratic People's Republic of Korea
Civ. Case No. 1:18-CV-00977

21

vi

STATUTES AND RULES:
TITLE 18, USC, §242
Deprivation of Rights under Color of Law
(see, Appendix J)

31, 32

IDAHO CODE: I.C. 15-5-303
Title 15. Uniform Probate Code
Chap. 5. Part 3. Guardians of Incapacitated Persons

13, 26

IDAHO CODE: I.C. 15-5-314
Compensation and Expenses

13, 27

INTERNATIONAL LAW:
The Nuremberg Code (1947)
(see, Appendix I)

36

International Human Rights

6, 18

vii

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW
The Opinion of the highest state court to review the merits, Idaho Court of
Appeals, dated July 22, 2020, appears at Appendix A to this Petition and is
unpublished.
The Order of the Idaho Supreme Court denying review of the Opinion
dated February 2, 2021, appears at Appendix B to this Petition and is unpublished.

JURISDICTION
The date on which the highest state court, Idaho Court of Appeals, decided this
case was: July 22, 2020. A copy of that decision appears at Appendix A.
A timely petition for review by the Idaho Supreme Court was thereafter denied on
the date: February 2, 2021. A copy of the order denying review appears at Appendix B.
The jurisdiction of this Court is invoked under 28 U.S. C. Sec. 1257(a).

-1-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTION:
Amendment 1: Freedom of Religion, Press and Expression, Separation of Church and
State, and to petition the Government for a redress of grievances.
Amendment 4: Unreasonable Searches and Seizures. The right of the people to be
secure in their persons, houses, papers, and effects, against unreasonable searches
and seizures; and no Warrants shall issue but upon probable cause, supported by Oath
or affirmation, and particularly describing the place to be searched and the person or
things to be seized.
Amendment 5: Due Process. No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, nor
be deprived of life liberty or property without Due Process of law.
Amendment 6: Rights of the Accused. The accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the act shall have
been committed, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against her; to have compulsory process for obtaining
witnesses in her favor, and to have the assistance of Attorneys for her defense.
Amendment 8: Cruel and Unusual Punishment Shall Not be Inflicted.
Amendment 9: Rights Retained by the People. The enumeration in the Constitution of
specific rights shall not be construed to deny or disparage other rights retained by the
people.
Amendment 10: Power of the States and People. The powers not delegated to the
United States by the Constitution, nor prohibited by it to the States, are reserved to the
States respectively, or to the people.
Amendment 14: Citizenship Rights, Due Process, Equal Protection. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of
the United States nor shall any State deprive any person of life, liberty, or property,
without Due Process of law; nor deny to any person within its jurisdiction the Wisdom
Justice of equal protection of the laws.
Human Rights (see, Appendix H)

-2-

STATEMENT OF THE CASE

COMES NOW, Petitioner, Rev. Cherie Phillips, who is the daughter and the
State of Idaho court-appointed Guardian of Erline Hall Phillips ("my Mother"), an
Incapacitated and Protected Person, deceased, in opposition to the Respondent,
Ms. Charo Rowley ("Ms. Rowley") (formerly Charo Webster), Court Visitor, and hereby
states as follows:
1. That on or about October 25, 2016, my attorneys filed a Petition for my
appointment as the Temporary and Permanent Guardian of my Mother, Erline Hall
Phillips, at the Ada County Magistrate Court Division of the District Court in the Fourth
Judicial District in Boise, Idaho, Case No. CV01-16-19924.
2. That on April 17, 2017, I filed a pro se "Motion to Reopen Case and Motion to
Review Court Visitor's Report and Fees and Petitioner's Responses" and Exhibits
attached thereto regarding Ms. Charo Rowley (formerly Charo Webster), the courtappointed social worker, for statutory mandated services in this case, and responded to
her illegal and unconstitutional Court Visitor's Report/Order and moved the court to
determine the amount of fees charged and requesting that she should not be paid
anything and should reimburse me for wrongful causes and breach of statutory duties,
and filed at the Magistrate Court Division of the District Court in the Fourth Judicial
District of Idaho in the County of Ada in Boise, Idaho, Case No. CV01-16-19924.
3. That on April 3, 2019, I mailed a Status Letter to the Clerk of the Court
requesting the status of my April 17, 2017, Motion, and, the Honorable Judge
Christopher M. Bieter scheduled a “Calendaring Order” for a Telephonic Status
-3-

Conference hearing on June 5, 2019, with the Magistrate Court Division of the District
Court in the Fourth Judicial District of Idaho in the County of Ada in Boise, Idaho, Case
No. CV01-16-19924. I requested an extension of time to properly prepare for the
hearing and to submit evidence in support of my Motion, and the Judge's assistant
scheduled a new hearing date. However, Judge Bieter called me on the original hearing
date of June 5, 2019, and denied my request to reschedule and proceeded with the
hearing. Present were Judge Bieter and me, but not the Respondent, and a transcriber
recording the hearing. Judge Bieter denied my Motion, and issued an “Order Requiring
Payment of Visitor Fees” filed on June 6, 2019.
4. That I mailed a Notice of Appeal on June 25, 2019, and my "Brief of
Appellant" on August 5, 2019, at the District Court in the Fourth Judicial District of Idaho
in Ada County, Boise, Idaho, Case No. CV01-16-19924. There was no hearing, and the
Honorable Judge Gerald F. Schroeder, Senior District Judge, issued an "Opinion on
Appeal" and decision that "The Magistrates Order is Affirmed," filed October 24, 2019.
5. That I mailed a Notice of Appeal on November 8, 2019, and my "Brief of
Appellant" on February 21, 2020, at the Idaho Supreme Court who transferred the
Matter to the Idaho Court of Appeals for a "Disposal" Decision, Docket No 47559-2019.
There was no hearing. The Opinion was issued by Judge Lorello with the "Disposal"
Decision affirming the Magistrate Court's Order, and with Judge Gratton and Judge
Brailsford, concurring the Decision, by an unpublished Opinion filed July 22, 2020.
6. That I mailed a "Petition for Review and Brief in Support of Petition" on
August 3, 2020, at the Idaho Supreme Court, Docket No 47559-2019. There was no

-4-

hearing. The "Order Denying Petition for Review" was issued by Melanie Gagnepain
Clerk of the Courts, and filed on February 2, 2021.
7. That my Mother was the first documented case of anyone being cured of
Alzheimer's disease by her BacterVira (stem cells), and she began speaking full
sentences again and expressing feelings in response to conversations and events after
a long time of therapeutic efforts with healthy nurturing, word studies, reading lessons
music therapy, extensive exercising, travel, cultural and social interactions, and
tremendous supportive family love. She was the evidence that Alzheimer's disease is
curable, and quite certainly that autism and lesser forms of dementia are also curable.
8. That while God was healing my Mother with her BacterVira, God was also
blessing me with the gift of new mathematics for ancient code reading, and now all
seven seals of the Original Holy Bible have been opened, revealing the sacred
scriptures in the original ancient language before writing was developed. Experiencing
the power of God, I learned that the brain has plasticity and the ability to do profound
things when supported with a healthy lifestyle, and I believed that my Mother could be
healed. And she taught me everything about Alzheimer's as our brains became as one
while God guided me and increased my mental acuity to share with her whatever she
needed in order to be cured from the most devastating disease known to humankind,
Alzheimer's disease. Now we know that it is curable and the symptoms are reversible. I
know what causes it, how it begins, how it manifests, and the difficult path that leads to
the cure; and I will teach others what my Mother and God's Wisdom taught me.
9. That the State of Idaho ("State") ordered the unconstitutional, illegal Death
Penalty by Forcible Euthanasia of my Precious Mother at St. Luke's Hospital ("SLH")
-5-

and which was attested by Lorenda Knight under State Authority along with two doctors
of SLH, Dr. Lisa M. Hunt, MD of Idaho and Dr. Burgess Norrgard, MD of Montana, who
attested under Medical Authority, and witnessed by Heather S. Dobbin, PA-C,
Physician Assistant Certified, but without legal cause and without any court hearing and
without Due Process in violation of the US Constitution and International Human Rights,
and which was preceded by unethical, cruel and inhumane Medical Experimentation
and that the Respondent Court Visitor, Ms. Rowley, was involved, and consequently, I
have refused to pay her court fees for services in this Guardianship case.
10. That Hospice is optional under Federal law and is paid by US Federal funds
under the Medicare Act. However, in the State of Idaho, in-home Hospice is
"mandatory" and enforced by the State and the Police; and refusal is punishable as a
"Felony" as screamed by Officer Joel Ellsworth of the Ada County, Idaho Police Dept.
11. That we had recently moved from Hawaii to Idaho, and my Mother was
active and able to see doctors as an "outpatient," and had just been accepted for State
Medicaid benefits. An appointment was made for November 14, 2016, to establish a
Primary Care Physician, Dr. Katherine Miller, MD, an American Medical Association
(AMA) Board Certified family physician, affiliated with St. Alphonsus Hospital.
12. That my Mother suddenly developed a "bacterial superinfection," necrotizing
fasciitis, on the side of her hip, which is resistant to all antibiotics and worsens
extremely fast anywhere on the body. Since it is common in Hawaii, I knew the urgency
of immediate medical care and took her to SLH. The Center for Disease Control said it
may have survived the trip from Hawaii on our clothing, wheelchair, and/or our skin.

-6-

13. That I told SLH about my Mother's November 14 appointment with
Dr. Katherine Miller, her Primary Care Physician who would be directing her curative
medical care, but my Mother needed urgent care for the bacterial superinfection that
suddenly developed and came from Hawaii where it is common and we had just moved.
14. That only the nurses examined my Mother, but not the doctors, and,
consequently, the nurses misdiagnosed it as a pressure sore, but it was not.
15. That the nurse, Julie Olson, RN, wrongly peeled off the healing scab and did
not know how to treat it because of the misdiagnosis, and consequently made it worse.
Further, she stated: "When my father gets too old to be able to feed himself, I won't
feed him; I will let him die," which was cruel and disrespectful in front of my Mother.
16. That Dr. Troy L. Johnson, MD, Dr. Martin J. Trainer, MD, and Anne Wardle,
RN directed the nurses for my Mother but did not examine her themselves. They made
a large list of hypothetical diagnoses for testing and sent unlabeled vials to their lab
which later showed the hypothetical diagnoses to be unfounded. But, the doctors had
little interest in the bacterial superinfection, and did not know anything about
Alzheimer's disease nor about elderly medical care requiring specialized training.
17. That Dr. Troy L. Johnson, MD demanded that my Mother be immediately
hospitalized based on the hypothetical diagnoses and added that she "looked
malnourished." I responded that she ate very healthy natural foods, whereby Dr.
Johnson, with a misogynist attitude, went into a physical rage yelling that only drugs
can cure, not food! Dr. Johnson, was an extreme allopathic physician untrained in
nutrition nor any integrative healing. I requested from the Head Nurse to hospitalize my
Mother for the bacterial superinfection under the care of a more compatible doctor, but
-7-

not Dr. Johnson. She said we would have to wait until late at night, but it was already
evening and we had been there all day, and I decided to come back the next day.
18. That Dr. Troy Johnson screamed: "If you leave this hospital, your Mother is
going to die!" Then Dr. Johnson and Dr. Trainer and Anne Wardle, RN, falsified the
Medical Records with horrendously fraudulent personal allegations against me and my
Mother and made up a long list of fraudulent maladies that lab reports later proved to
be false. Further, SLH refused to give any prescription nor to show me how to care for
the bacterial superinfection because of their misdiagnosis of it as a pressure sore.
19. That we returned to SLH the next day, and again I asked for my Mother to
be admitted for urgent medical care for the bacterial superinfection. Dr. Boyce K. Fish,
DO reviewed the fraudulent description about us in the Medical Records written by Dr.
Johnson, et al., and ordered a drug used to sedate wild animals, but he was surprised
when he met us, as my Mother was calm, and he said I looked like a kind woman. But
he did not examine my Mother and did not know anything about Alzheimer's disease
nor the elderly, and the misdiagnosis of pressure sore that would heal once pressure
was alleviated. He stated that he refused to admit my Mother and then sat down and
talked to me as if I were a mentally deficient child and told me that I must stop asking
for medical care for my Mother, and I must say, "I want Hospice." But, I said that I did
not know anything about Hospice. Then he said to "try it," and there's no obligation, and
it can be stopped at any time. Then the SLH case manager, Dorothea Decamp, told me
to call Diane Stephens, RN at their SLH-affiliated agency, Complete Hospice Care.
20. That Dr. Fish wrote an Order for Hospice in the Medical Records and
alleged that my Mother would soon die by natural death, but which he never discussed
-8-

with me, since she was not dying. Dr. Fish lied about my Mother to make her qualify for
Hospice services with Medicare funds instead of providing expensive services at SLH.
21. That the bacterial superinfection was spreading and worsening, and on
October 13, 2016, I took my Mother to the SLH-affiliated St. Luke's Clinic, Wound and
Hyperbarics of Boise, Idaho, where Dr. Frederick J. Klein, MD and Nurse T'Rell
Pinnock, RN treated my Mother, but refused to give any prescription. After reading the
fraudulent Medical Records of Dr. Johnson, et al., Dr. Klein sat down and spoke with
me like a mentally deficient child (believing that anyone with Alzheimer's is a genetic
idiot) and demanded that my Mother use the SLH-affiliate, Complete Hospice Care, in
our home as ordered by Dr. Fish. He said if I refused, he would call the State Adult
Protective Services ("State APS" or "State") and he said, "Trust Me!" She will soon "die"
and needs assistance in dying. However, this made no sense as patients need medical
care to prevent sickness and diseases until natural death, but not "assistance" in dying.
However, I remained calm knowing she wasn't dying and was very healthy and she had
an appointment with Dr. Katherine Miller who would direct her medical care plan.
22. That we were still at Dr. Klein's office in the reception area waiting for our
transportation when Lorenda Knight of the State APS called and said she was at the
front door of our home and needed to "urgently" see my Mother. I said we were at
Dr. Klein's office, but could visit tomorrow morning while Hospice was there. Lorenda
said that she did not want to be there when Hospice was there. This made me
concerned about her identity, and I requested an appointment on the State's letterhead.
She agreed. And I followed up with her supervisor, Rachael Nelson, who also agreed.

-9-

23. That on that same evening of October 13, 2016, I met with Diane Stephens
RN of Complete Hospice Care in the lobby and signed the Medicare Hospice Contract.
Thereafter, Diane Stephens, RN described the Forcible Euthanasia Plan which was for
my Mother to stop going outside, force her to become bedridden, and only receive
nutrients and hydration intravenously. This horrified me, but I remained calm, and
immediately prepared a letter refusing all Hospice services under the Optional Clause.
24. That on about 5:00 pm on October 17, 2016, while we were eating dinner,
our door was unlocked with a key and violent people with weapons rushed in, terrorizing
my Mother and I, and screaming "Dr. Klein called!"
25. That they called themselves the "Team" and their actions were consistent
with the ideology of the secret society of the Death with Dignity movement ("SS Team")
who support physician-assisted surrogate suicide ("Forcible Euthanasia") of the
"incompetent" and others prejudged unfit to live.
26. That the men with deadly weapons wore police uniforms of the State of
Idaho and the County of Ada with Lorenda Knight and Rachael Nelson of the State
APS. Officer Joel Ellsworth yelled in my face that it was a "Felony" to take my Mother to
Dr. Katherine Miller, MD, and Lorenda screamed that I must "cancel that appointment."
27. That my Mother was violently kidnapped from the dinner table in our home
and carried to SLH to be Forcibly Euthanized without any court hearing whatsoever and
without Due Process and in violation of our Human Rights, Civil Rights, Right of
Privacy, and Freedom of Religion under the US Constitution, Amendments 1, 4, 5, 6, 8,
9, 10, and 14, and such other applicable rights, laws and statutes.

-10-

28. That Officer Joel Ellsworth was in the national news for shooting a man to
death in the parking lot of the police department where the victim was seeking help.
However, officer Ellsworth argued that the victim was suicidal and wanted to be killed.
Officer Ellsworth is a violent raging man, and lied in our police report and supported the
lies of Lorenda Knight who is a serial killer. They knew each other, and work together
for the covert government protected by the SS Team under State-immunity.
29. That Dr. Megan C. McCarren, MD, wrote in the SLH Medical Records that
my Mother was taken from her home because she would "die within a few days" and
needed physician assistance in the dying process. The SS Team at SLH described me
throughout the Medical Records as mentally deficient and unable to understand simple
words. Further, Dr. Lisa M. Hunt, MD wrote in the SLH Medical Records that my Mother
was only at SLH "because of concerns that her daughter is not able to manage end of
life issues at home adequately." They described and mocked me as a genetic idiot.
30. Why would anyone, especially over 50 doctors and nurses, et al., take an
elderly lady from her home when they allegedly believed she would soon die? They
wanted to remove family rights while under State custody and keep my Mother's body
post mortem since Alzheimer's is valuable for research that is richly funded; but they
were about to discover that she was even more valuable than they realized.
31. That I stayed the first night with my Mother at SLH and slept in a chair
beside her bed, and in the morning I went home and prayed and sought Guardianship.
32. That the Police Report contained so many fraudulent allegations by Lorenda
Knight of the State and Officer Joel Ellsworth that I filed Responses to be attached to

-11-

the Police Report at the Garden City Police station and I would later attach it as an
exhibit to my Motion filed at the Court.
33. That in an effort to save my Mother from captivity at SLH, I sought
Guardianship, but the free services of Legal Aid were "blocked" since they represented
the State APS in allegedly seeking Guardianship. Thus, I had to hire private attorneys
which catapulted me into enormous financial debt.
34. That on or about October 25, 2016, my attorney Heather L. Conder, Esq.
filed a Petition to appoint me the Temporary and Permanent Guardian of my Mother
and filed my Affidavit of facts requiring an "emergency" proceeding.
35. That at SLH, the nurses said that my Mother was "talking" and they were
surprised and excited and the doctors brought in a specialist who was a Speech
Therapist and who wrote in the Medical Records that my Mother was speaking
"intelligible words." Upon making this discovery, the SS Team began to fight viciously
and unethically for State Guardianship of my Mother in efforts to keep her body post
mortem and exterminate family rights.
36. That my attorney, Heather L. Conder, Esq., called and said Guardianship
was just filed and would be approved shortly. I was at SLH and excitedly told the nurse
who immediately rushed out of the room. Upon returning, she said that she was sorry to
hear that I did not get a guardianship. SLH knew before my attorneys.
37. That the State and SLH had called the Magistrate Court and covertly
contested my Guardianship proceedings which resulted in delay that gave more time to
the State and SLH to proceed with the Forcible Euthanasia Plan.

-12-

38. That on or about early November, 2016, the Magistrate Court appointed
Trent Marcus, Esq. as the Guardian ad litem with duties under Idaho
Code, I.C. 15-5-303 and Idaho Code, I.C. 15-5-314, and required to investigate the
facts and file a Guardian ad litem Report with the Magistrate Court.
39. That the Magistrate Court then appointed Ms. Charo Rowley (formerly aka
Charo Webster), Licensed Clinical Social Worker, to visit our home and with duties
under Idaho Code, I.C. 15-5-303 and Idaho Code, I.C. 15-5-314, and to file a Court
Visitor Report with the Magistrate Court.
40. That on October 21,2016, Lorenda Knight of the State APS called after
hours making a Ransom Demand in exchange for my Mother's release from captivity
and she wanted to know about accessing our finances. She demanded that if she lets
my Mother come home I must use the SLH-affiliated agency, Complete Hospice Care
and that I must not take my Mother to any physician, and that my phone must be turned
on at all times and all calls must be answered, and that I must open the door whenever
she comes to our home and must allow her complete access to our records and home.
41. That I told Lorenda about my extensive efforts for medical care of my Mother
who had a beautiful life and a very healthy lifestyle and started speaking sentences
again, saying, "I enjoyed that," after her sit-and-walk along the Greenbelt and that she
was able to walk around in our home and to walk to the bathroom and take showers.
But Lorenda screamed that I must "never say that again!" And then demanded that if I
wanted to see my Mother again, I must say "My Mother is bedridden!" But she was not.
42. That my attorney, Heather L. Conder, Esq., called Lorenda and told her to
discuss everything with her instead of me, but Lorenda never called my attorney back.

-13-

Instead, as a consequence of my refusal of the Ransom Demand, Lorenda on behalf of
the State worked with the SS Team to viciously resist my Guardianship and worse.
43. That Kayla Marshall, the Social Worker at SLH, wrote continuous fraudulent
entries into the Medical Records with massive Propaganda mesmerizing and fueling the
SS Team with motivation of "extreme hate" in support of the Euthanasia Death Penalty
and the extermination of family rights, and, thus, the SS Team coordinated eight covert
attacks to stop me from obtaining Guardianship and for them to have more time to
Forcibly Euthanize my Mother, including, but not limited to: (1) covertly delaying the
Guardianship while the Court appointed a Guardian ad litem and Court Visitor to file
Reports; (2) refused to give my attorney a diagnosis that my Mother needed a guardian;
(3) made massively fraudulent Medical Records for the Guardian ad litem and the Court
Visitor to attach to their Reports to file in this case; (4) massive propaganda to incite the
medical staff to participate in hateful entries in the Medical Records to support
extermination of my family rights; (5) made a threatening conference call demanding for
me to come to SLH but I was concerned they would hold me in captivity, and they
refused to talk with me by phone; (6) tried to have me arrested under false pretenses;
(7) tried to hold me captive during a visit with my Mother at SLH after I asked why my
Mother had lost massive amounts of weight so quickly, and then I was threateningly
surrounded by the SLH staff and who blocked the door, but retreated after seeing that I
was calm and spoke logically; and (8) accepted a Deal ("Deal") from the Court Visitor,
Ms. Rowley, for SLH to be granted a Shadow Guardianship blocking all my
Guardianship rights.

-14-

44. That I activated St. Alphonsus-Treasure Valley Hospice and advised Kayla
Marshall, the Social Worker. However, SLH still refused to release my Mother from
captivity which showed that they had no true interest in my Mother. Before, they alleged
the problem was all about my refusal of Hospice. Now, they demanded possession of
my Mother with "no" family rights at all, and they believed she would die soon, and they
and continued to viciously fight to keep her body post mortem.
45. That the Medical Records at SLH fraudulently show that I had given an
"oral" Informed Consent witnessed by Jessica Viello with a forgery of my signature, but
I did "not" give any Informed Consent. Further, it shows I had agreed to an "option" for
everything about me to be published statewide in the Medical Records, but I did "not."
46. That none of the doctors were given "informed consent" by me. The doctrine
of informed consent is a primary means developed in the law to protect the personal
interest in the integrity of one's body. "Linder this doctrine, no medical procedure may
be performed without a patient's consent, obtained after explanation of the nature of the
treatment, substantial risks, and alternative therapies." (Matter of Conroy, 486 A. 2d
1209 (1985), NJ: Supreme Court.)
47. That the SS Team was deliberately causing my Mother to become
malnourished to fit the fraudulent Medical Records of Dr. Troy L. Johnson, MD, et al.
and gave her ice cream and chocolate pudding, and, then began withdrawing foods and
starving my Mother to make her die. But her strong health kept her from dying quickly.
48. That when I expressed my concern for their refusal to feed my Mother and
refusal to let me feed her, the nurse said, "This is how we die." But it is not.

-15-

49. That SLH cruelly placed a board (covered with a sheet) against my Mother's
throat that, along with Opiod and Haldol narcotics, caused permanent throat injury and
dysphagia, the inability for her to swallow. I removed the board while I was there.
50. That SLH moved my Mother to an isolated area of the Surgery Department
where no one would hear her crying in pain during the cruel experiments to test
methods of physician-assisted suicide and Forcible Euthanasia. Further, she was
inhumanely subjected to pain experiments to test her painful reactions and threshold
(how long she could stand the pain). Dr. Gregory T. Trapp, MD, committed this crime by
ordering the staff to deny sufficient food for my Mother to set the groundwork for
complete starvation, and he cruelly joked in the Medical Records: "Don't Hate Me."
51. That Heather S. Dobbin, PA-C, Physician's Assistant Certified, who called
herself the "Slim Hospitalist," conducted drug experiments to see my Mother's reaction
to combinations of hallucinogenic narcotics and then gave her Opiod narcotics to test
her reaction. At first a doctor had to sign for Ms. Dobbin's orders from SLH pharmacy,
but while she was experimenting with my Mother, they allowed her to order by
telephone without a doctor. Ms. Dobbin then began "playing" with narcotics that she
gave to my Mother for Ms. Dobbin's pleasure of watching my Mother's reactions. Ms.
Dobbin was "not" even a doctor and was allowed to experiment on my Mother. I am in
tears because it is so horrendous that my nearly 89 year old Mother had to endure this
torture the same way as barbaric nations torture their political enemies. And the Court
could have protected her, but delayed the Guardianship and knowingly left her alone at
a major hospital without informed consent. The SS Team thinking she was going to die
anyways, did not care how much pain and suffering they inflicted upon her.

-16-

52. That they never thought anyone outside of themselves would see my
Mother's records, and boastfully the SS Team shared their pleasurable experiments
with each other. Ms. Dobbins also gave my Mother injurious Opiod and Haldol narcotics
to induce permanent dysphagia, and then some of her teeth were cracked out so that it
would be painful to eat. This was unconscionable beyond comprehension.
53. That International Law prohibits the involuntary medical experimentation on
humans but which SLH did when it tested deadly experimental drug combinations on
my Mother to be used for Forcible Euthanasia of those who are incompetent and also
for the physician-assisted suicide of those who are competent, but without informed
consent nor prior knowledge by the family, and, further, SLH wrongfully used Stateimmunity authorized by the State of Idaho under Color of Law to approve such wrongful
experimentation by combining Opiod narcotics and Haldol to induce "dysphagia" and
multiple drug combinations to induce the process of death and internal injuries and
inducing her into a comatose state and refusing to give my Mother food and water, and
other acts of atrocities which caused her enormous pain and suffering.
54. That after the experimentation, the SS Team at SLH Forcibly Euthanized my
Mother when they knew their time was limited and the Court advised them that I would
soon become her Guardian.
55. That the SLH doctors could have waited for my Guardianship, but the SS
Team lied to the medical staff and made them think that there is no way the idiot
daughter could become her Guardian and that my Mother allegedly had a poor quality
of life with dementia and was bedridden (but she wasn't before) and so they
transitioned quickly to the "Final Solution" of Forcible Euthanasia. But, some doctors

-17-

argued against it as being unethical when no one was there to give informed consent
and that they could sustain her until a decision was made for a Guardian. However, the
SS Team wanted to move quicky in their efforts to make her die before my
Guardianship so that they could keep her body post mortem.
56. That the Medical Records state that on November 1, 2016, the State of
Idaho and St. Luke's Hospital ordered the unconstitutional, illegal Death Penalty by
Forcible Euthanasia of my Precious Mother at St. Luke's Hospital and which was
attested by Lorenda Knight under State Authority along with two doctors of SLH,
Dr. Lisa M. Hunt, MD of Idaho and Dr. Burgess Norrgard, MD of Montana, who attested
under Medical Authority, and which was witnessed by Heather S. Dobbin, PA-C, and
carried out the Death Sentence of the experimental subject, my Precious Mother, by
Forcible Euthanasia, but without legal cause and without any court hearing and without
Due Process and in violation of the US Constitution and International Human Rights.
57. That Dr. Lisa M. Hunt, MD, one of the doctors who ordered the Forcible
Euthanasia of my Mother, wrote in the Medical Records: "She has dementia which is
irreversible . . . and a very poor quality of life . . . and she is only at SLH because of
concerns that her daughter is not able to manage end of life issues at home
adequately."
58. That Dr. Burgess Norrgard, MD a Montana doctor (where physician-assisted
suicide is practiced) traveled all the way to Idaho, and, after ordering the Forcible
Euthanasia, he wrote in the Medical Records: "Give some morphine for the SOB" so as
"not to give the wrong message to her daughter."

-18-

59. That Heather S. Dobbin, PA-C, the Physician Assistant Certified, who
entertained herself with inhumane experimentation using injurious narcotics on my
Mother, and who was the witness to the attested Forcible Euthanasia, boasted her
wrongful acts with the SS Team in the Medical Records while disrespectfully calling
herself repeatedly the "Slim Hospitalist," mocking the starved condition of my Mother
being condemned to the final phase of Forcible Euthanasia by "Slender Man" the
infamous fictional character popular in movies who forces others to commit suicide.
60. That the SS Team ordered my Precious Mother to be dehydrated and
starved to death along with Opiod narcotics and Haldol and other lethal dosages of
drugs to induce her into a comatose state and causing permanent dysphagia (inability
to swallow) and brain damage and fatal internal injuries, along with complete withdrawal
of all food and water; and, then they walked away and left her to die alone in her room.
61. That my Mother, being held in captivity at SLH against her will and against
her family's will, and being all alone and unprotected, began the long painful physicianinduced death process as her internal organs suffered with immense pain from
dehydration and the deadly attack upon her brain after she had worked so hard to
become cured from Alzheimer's disease but was now suddenly being forced into
oblivion from the deadly effects of narcotics and the inhumane painful injuries which
were brutal and barbaric beyond comprehension. There are no more words. No words.
62. That when I visited my Mother, I expressed my concern over her enormous
weight loss, and SLH surrounded me with their staff and threatening me if I tried to stop
it, and then Dr. Chen explained to me that my Mother was on orders of Hospice and
would "not" be given any food or water and that "starvation is a humane way to die."

-19-

This also confirmed that Hospice, in the perspective of SLH, is Forcible Euthanasia by
withdrawal of food and water, but which is "not" the intended purpose of Hospice.
63. That Dr. Margaret L. Chen, MD gave feigned excuses for my Mother's
starvation and wrote to the concerned staff in the Medical Records that "the daughter
knows we don't have the time nor resources to feed her mother." Further, she went
back and made several entries in the Medical Records fraudulently stating that the
daughter said her Mother "spits out all her food" thinking she is brushing her teeth. And
also, Dr. Megan C. McCarren, MD went back and made fraudulent entries in the
Medical Records to protect and defend the SS Team and to defame my family.
64. That most of the SLH Medical Records of my Mother had been wrongfully
"edited" with massive attacks against "me" with fraud, lies, and deception. Forensic
analysis showed two versions or more with different authors, and simple original entries
were traced by the network to the edited complex fraudulent entries of Dr. Troy L.
Johnson, MD, et al., with massive Propaganda mesmerizing and fueling the SS Team
with motivation of "extreme hate" in support of the Euthanasia Death Penalty and the
extermination of family rights. In the end, the Medical Records became a fiction book
crafted from every thing they could imagine.
65. That the members of the SS Team have no conscience and their guilt is
repressed with their Opiod narcotics and their wild nonconscious mind overpowers any
rational feelings and rages up with mindless inhumane actions against their victims.
Dr. Margaret Chen admitted that she herself was taking Opiod narcotics, and those in
the SS Team act with symptoms consistent with severe narcotic addictions.

-20-

66. That only two doctors and a nurse at St. Luke's Hospital refused to
cooperate with the SS Team on ethical grounds as shown written in the Medical
Records and made efforts in rational arguments in opposition. God bless them.
67. That in the SLH Medical Records, the lab reports showed that my Mother
was initially very healthy and that the long list of hypothetical diagnoses were used as
deception to contest my guardianship efforts along with their massively fraudulent
editing and propaganda in the Medical Records, and, thus, shows premeditated intent
to commit Forcible Euthanasia (attested in writing in the Medical Records). This was
similar to the physician-assisted homicide method used by doctors in Nazi Germany.
Doctors lie, but lab reports do not lie; however, lab reports can be exchanged with other
patients and with the unlabeled vials such as those used by the SS Team for my
Mother as shown in the Medical Records.
68. That, further, the method used by the SS Team was very similar to the
method used by the doctors in the Warmbier case when North Korea kidnapped and
illegally detained, tortured and fatally injured a tourist who was a University of Virginia
student, Otto Warmbier, and returned him to his family in a non-responsive state with
medically induced severe brain injuries. As a direct and proximate result of North
Korea's actions, Otto died after his release. He was held in a hospital under the
fraudulent claim of medical treatment and was given fatal dosages of Opiod narcotics
strategically combined with other lethal drugs. (Warmbier v. Democratic People's
Republic of Korea, Civ. Case No. 1:18-CV-00977.)
69. That on November 10, 2016, Trent Marcus, Esq. filed his Guardian ad litem
Report with the Court and recommended that guardianship be granted to me.

-21-

70. That my attorney Heather L. Conder, Esq and the Guardian ad litem,
Trent Marcus, Esq. pressured the Court to recommended Guardianship for me.
71. That the Honorable Judge Christopher M. Bieter of the Magistrate Court
granted me a Temporary Guardianship by Order dated November 14, 2016. However,
Ms. Charo Rowley's Court Visitor Report functioned as an illegal Supplemental Court
Order that in effect granted a Shadow Guardianship to SLH and the State with full
Guardianship rights and which was enforceable by threat of guns and violence by the
SS Team who kidnapped my Mother, if I refused to submit to their authority. Thus, I
was granted Guardianship, but without any Guardianship rights.
72. That after the SS Team had maliciously induced my Mother into a comatose
state and several doctors confirmed that she was in the actively dying process, they
covertly contacted the Court without a hearing. My attorneys told me that SLH had
made demands that my Mother had to have Hospice or she could not come home.
73. That even though I had been granted Guardianship under Statutory
authority, I had "no" guardianship rights to act in any way to protect my Mother nor to
secure any curative medical care for her, and everything "after" being granted
guardianship was worse than "before" filing the petition with enormous financial debt.
And, in the end, SLH and the State had complete control over my Mother and me.
74. That I had already set up Treasure Valley Hospice, and they were there on
November 15, 2016, when my Mother was carried home from SLH in an ambulance
and arrived in a non-responsive comatose state for which she remained in most of the
time except briefly awakening for short periods. She was unable to move by herself and
in pain when moved. Her throat had been severely injured and she had dysphagia, and
-22-

some teeth were cracked out and some were missing. She was dehydrated and her
tongue was covered with fungus, and SLH had dug a large hole down to the bone into
the original sore on the side of her hip and the bacterial superinfection sores had
multiplied and spread all over her body and was so severe that it even transferred onto
my arm. She had bruises and was brain damaged with severe internal injuries, kidney
damage, and SLH had forced her to become completely bedridden and unable to
move. She could no longer sit up and could no longer walk, and she had suffered
horrendous starvation down to her skin and bones, and showed the atrocities that had
been forced upon her during captivity and unethical inhumane experimentation at SLH.
75. That she still had the grape juice coloring her teeth and tongue that was
from her last meal when they kidnapped her, and which showed the extreme denial of
water to drink and the horrendous suffering she endured with long excruciatingly severe
dehydration that even a SLH doctor had expressed in horror in the Medical Records.
I

76. That I spent every hour desperately trying to save my Mother's life and trying
to feed her liquified nutrients when she was briefly awake, but she had been
irrecoverably starved and her throat was severely and permanently damaged from the
board that the SS Team had kept cruelly pushed up against her throat.
77. That SLH gave me "no" prescription for any curative treatment for my
Mother, but many narcotics, two bags full. But, she needed "curative" conventional
medicine and needed a doctor to examine her to see if she could be saved, but which
they denied under "threat" of violence and more injuries because SLH and the State did
not want other doctors to see what they had done to my Mother. And I cried prayers.

-23-

78. That I immediately obtained the Medical Records and discovered that Ms.
Rowley, the Court Visitor, was involved, and I refused to make further payments to her.
79. That out of 1,143 pages of SLH Medical Records, there is a huge amount of
massively fraudulent defamatory and slanderous accusations and propaganda about
me, and states that I told them these things, but I did not. The entries are chaotic,
contradictory, and show massive tampering, editing, and alterations throughout.
80. That in the Medical Records, the nurse, Julie Olson, RN, who did all the
treatment of the spreading sores, had exchanged the before and after pictures to make
it look like she had made progress, but she did not have the medical training to treat
bacterial superinfection and none of the doctors provided any medical care for them.
81. That my Precious Mother died on December 2, 2016, and the direct and
proximate cause was the Death Penalty of Forcible Euthanasia and unethical and
inhumane Experimentation with mens rea and violent hate beyond comprehension, and
such other intentional and malicious causes shown by the evidence, and the Death
Sentence was carried out by the State and SLH, in violation of Human Rights and the
infliction of Cruel and Unusual Punishment without Due Process in violation of the US
Constitution, and in violation of such other applicable laws and statutes.
82. That while I was at the funeral home, the Funeral Director advised me that a
doctor was examining my Mother's body. I said that no one is authorized to see her,
and then the Funeral Director went to speak with the doctor, but was gone a long time. I
did not see my Mother buried since she was buried out of town as I could not obtain the
additional thousands of dollars needed for a closer burial site. But, after the forensic

-24-

analysis of the Medical Records showing the horrendous details, I am concerned that
my Mother's body may have been sold to SLH instead of being buried.
83. That my Mother's Death Certificate was fraudulent and the doctor who wrote
the cause of death as "Alzheimer's Disease" even said that she was a smoker, but she
was not. I called the doctor and left messages, but he refused to return my calls, and
refused to change the cause of death, but only changed it to show non-smoker.
84. That the wrongful death of my Mother was committed with extraordinary
prejudice and hate by the State and SLH, et al. and was the most unconscionable
documented Human Rights violation against anyone with Alzheimer’s disease in the
history of America.
85. That Lorenda wrote in the State APS Records, "successful resolution" of the
Adult Protection Plan, which was in effect, the Idaho Euthanasia Program and Idaho
Physician-Assisted Suicide under the upcoming State plan for the Idaho Death with
Dignity Act. We know what they have done so far and what is yet to come without any
remorse and no consequences for their wrongful actions and with huge profits from
fraudulent siphoning of Federal Medicare benefits, and the victims yet to be chosen.
86. That on April, 20, 2017, I filed a Motion at the Courthouse to obtain the 911
Record and the State APS Record regarding the kidnapping of my Mother. I attended a
hearing and the Court ordered the release of the records. Thereafter, I obtained the 911
Record, but the State APS Record was delayed when Lorenda Knight and her
supervisor Rachael Nelson went into hiding and there was no response until after a
long time when a new supervisor sent the Record, but which was massively fraudulent
and coordinated with the same fraud in SLH's Medical Records.
-25-

87. That on April 17, 2017, I filed a Motion against the Court Visitor with
Responses to her Report/Order at the Magistrate Court for Breach of Duties and
wrongful and illegal acts and a request not to pay her. But, there was no response.
88. That Kayla Marshall, the social worker at SLH, wrote in the Medical Records
that she vowed to come after me next, and she did. In 2017, in Idaho, Mr. Robert
Powers sent me a threatening letter on a sloppily photocopied Idaho Dept, of Health
and Human Welfare letterhead, demanding to enter my home on 9/11 (September 11,
2017) and thereafter continuously, and that he could only be reached on his cell phone
and his typed phone number at his Oregon office, and with blood-red handwriting
added, that he must enter my home, privately, and that it is "critical" and must be
"face-to-face." I responded to him and the Administrator of the State agency with a
cease and desist letter as this demand was illegal and unconstitutional without an order.
89. That, further, I received continuous threatening phone calls and messages
and I moved away from Idaho.
90. That on April 3, 2019, I mailed a Letter requesting the Status of my April 17
2017, Motion requesting not to pay the Court Visitor's fees and set forth my Responses
and reasons therefor. The Honorable Judge Christopher M. Bieter scheduled a
telephone hearing on June 5, 2019, for which I requested more time to prepare, but
which was denied and he also denied my Motion and ordered the payment of the Court
Visitor's fees. Thereafter, the appellate courts concurred. Ms. Rowley (Webster), the
Court Visitor, did not attend the hearing and did not respond to my appellate briefs.
91. That my appellate Briefs set forth the facts and evidence showing that Ms.
Charo Rowley had statutory duties under the Idaho Code, I.C. 15-5-303 and
-26-

I.C. 15-5-314, but the evidence shows that Ms. Rowley breach those duties in violation
and noncompliance with governing statutory authority, including but not limited to:
91.1. The Medical Records show that Ms. Rowley made an illegal covert Deal
with SLH promising to grant them Shadow Guardianship rights using her Court Visitor
Report as a Supplemental Court Order;
91.2. Ms. Rowley's Court Visitor Report, being a Supplemental Court Order, in
full force and effect, denied my Guardianship rights that had been granted by the Court,
and, instead, granted SLH a Shadow Guardianship overpowering all my Guardianship
rights and complete control over my Mother, enforced by martial law with threat of
violence to my Mother and I, and to repeat the wrongful kidnapping;
91.3. Ms. Rowley's Court Visitor Report/Supplemental Order supported the
State of Idaho in completing the Death Penalty of my Mother by demanding
"no" curative medical care when returned home after the Forcible Euthanasia by SLH
who carried out the Death Sentence and Experimentation under the Death Penalty
ordered by the State of Idaho without Due Process;
91.4. Ms. Rowley opposed curative care of my elderly Mother by doctors and
supported noncurative Hospice services that only provide narcotics;
91. 5. Ms. Rowley stated she was working for Hospice agencies, but she was
demanding "mandatory" Hospice contrary to the Federal Medicare Act governing
Hospice agencies as "optional" that can be freely withdrawn at any time;
91.6. Ms. Rowley, since she worked for Hospice agencies, benefitted from
mandatory Hospice services in Idaho which is contrary to the federal statues governing

-27-

Hospice under the Medicare Act, and whose services have become illegal, violent,
inhumane and unconstitutional;
91.7. Ms. Rowley never investigated the facts and refused to do the fact-finding
social work for which she was appointed;
91.8. Ms. Rowley visited our home; however, with negligent insufficiency and
inaccuracy, she deliberately, or being confused with another case, described our home
as being of inferior quality, but it was "not";
91.9. Ms. Rowley refused to interview witnesses of our healthy and active
lifestyle and those with whom my Mother was an inspiration and who were sitting right
outside in the courtyard, and many others nearby who loved my Mother and knew her
from our frequent visits because she enjoyed social interactions with many people;
91.10. Ms. Rowley delayed her visit to my Mother at SLH after I called and
pleaded for her mercy of extreme urgency to visit my Mother since SLH was starving
her to death;
91.11. Ms. Rowley used her Court Visitor Report with false and fraudulent
defamatory and slanderous accusations and implications against my beliefs and
character without any supporting facts nor evidence;
91.12. Ms. Rowley placed false and fraudulent facts and conclusions in her
Court Visitor Report that she never discussed with me prior thereto to respond and
provide evidence of the truth;
91.13. Ms. Rowley demanded extermination of all my family rights with
complete control of me and my family and she threatened violent martial law if I
asserted any of the Guardianship rights that I was granted by the Court. And she based
-28-

her demand on fraudulent allegations and conclusions without any supporting facts
whatsoever, and which was illegal and unconstitutional invasion of our right of privacy;
91.14. Ms. Rowley cruelly threatened me and my Mother with guns and violence
of martial law again if we refused "mandatory" Hospice, but which is "optional" and can
be withdrawn at any time, and which denied "curative" medical care to my Mother;
91.15. Ms. Rowley used her Court Visitor Report to promote her personal and
political beliefs in the National Death with Dignity political movement which is promoting
the use of Hospice for physician-assisted suicide for those who are competent, and
which has branched into Forcible Euthanasia by starvation and dehydration of those
who are incompetent, however, being statutorily illegal in Idaho (but which is being done
illegally and covertly by a large group in Idaho as shown in this case) she should "not"
have ordered me to apply her political beliefs in "Death with Dignity" for my Mother and
which was against our religious beliefs in violation of our Freedom of Religion under the
US Constitution;
91.16. Ms. Charo Rowley did "not" make any recommendations to the Court,
which was contrary to her statutory duties;
91.17. Further, such other breached duties as shown to be applicable hereto.
92. That Ms. Rowley's Court Visitor Report, being a Supplemental Court Order,
in full force and effect, which denied my Guardianship rights that had been granted by
the Court, and, instead, granted St. Luke's Hospital (SLH) a Shadow Guardianship
overpowering all my Guardianship rights, being unconstitutional and illegal under
Federal, State and County laws and statutes, precludes its enforcement for payment of
Court Visitor services to Ms. Charo Rowley.

-29-

93. That Ms. Rowley's Court Visitor Report/Supplemental Order, which
supported the State of Idaho in completing the Death Penalty of my Mother by
demanding "no" curative medical care when returned home after the Forcible
Euthanasia by SLH who carried out the Death Sentence and Experimentation under the
Death Penalty ordered by the State of Idaho without Due Process, being
unconstitutional and illegal under Federal, State, and County laws, precludes Ms.
Rowley's payment for services rendered.
94. That Ms. Rowley's breach of statutory duties in violation and noncompliance
with governing statutory authority, being unconstitutional and illegal under Federal,
State and County laws and statutes, preclude its enforcement for payment for services
that she did "not" legally render.
95. That the Medical Records show documented mens rea with extraordinary
hate by the SS Team of the State and SLH who are extremists that acted with mens rea
and prejudiced hate because we did not resemble their official members since my
Mother had red hair, and I am a Native American Indian, and they vowed to "go after
the daughter (me) next," and thus, clearly showing their belief in genocide and that
defective genes are the cause of Alzheimer's disease, but they are not, and, further,
they hated us because we did not obey the commanding orders of their fascist leaders
operating covertly within SLH and the State, the government within the government.
96. That the Perpetrators who are members of the SS Team are empowered by
the unelected government functioning covertly within the elected government since they
have access to private records of every citizen, which enable them to choose their

-30-

defenseless victims while practicing Forcible Euthanasia with Federally funded Hospice
and at St. Luke's Hospital in Boise, Idaho.
97. That the evidence shows that the Forcible Euthanasia SS Team were a
large group of people who were highly educated doctors, lawyers, judges, social
workers, pharmacists, police, and others hidden within governmental agencies
spanning Idaho, Montana and Oregon, and they all have State-immunity by the
SS Team to protect them from liability for their inhumane and illegal actions.
98. That it took over fifty (50) doctors, nurses, pharmacists and other healthcare
workers to Forcibly Euthanize my Mother, and all were paid by the federal taxpayers
with Medicare funds. The members of the SS Team of the State and SLH acted with
fascist Deprivation of Rights under Color of Law in violation of Title 18, USC, § 242, and
with violations of the US Constitution Human Rights, Civil Rights, Right of Privacy,
Freedom of Religion, and Separation of Church and State.
98.1. Those Perpetrators who directly participated and/or directly supported the
SS Team in the Idaho Euthanasia Program in this case include but are not limited to:
Lorenda Knight and Rachael Nelson, State of Idaho Center on Aging. Area 3 Senior
Services Agency; Joel Ellsworth, Police Officer, Garden City Police Dept.;
Nurse Diane Stephens, RN, Complete Hospice Care; David Pate, Administrator,
St. Luke's Hospital (SLH); Head Nurse from Oct. thru Nov. 2016 (SLH); Jessica Viello
(SLH); Kayla Marshall, Social Worker (SLH); Marsha Cahue, Case Manager (SLH);
Dr. Troy L. Johnson, MD (SLH); Dr. Martin J. Trainer, MD (SLH); Nurse Anne Wardle,
RN (SLH); Nurse Julie Olson, RN (SLH); Dr. Boyce K. Fish, DO (SLH);
Dorothea Decamp, Case Manager (SLH); Dr. Megan C. McCarren, MD (SLH);

-31-

Dr. Greg Trapp, MD (SLH); Dr. Margaret L. Chen, MD (SLH); Dr. Burgess Norrgard, MD
(SLH) (Montana); Dr. Lisa M. Hunt, MD (SLH); Heather S. Dobbin, PA-C, Physician's
Assistant Certified ("Slim Hospitalist") (SLH); Amanda Allen, Nursing Assistant (SLH);
Mikayla Payne, Nursing Assistant (SLH); Nurse Christine Hatley, RN (SLH); Nurse
Jessica Stein, RN (SLH); St. Luke's Hospital Pharmacists from Oct. thru Nov. 2016
(SLH); Dr. Frederick J. Klein, MD and Nurse T'Rell Pinnock, RN, St. Luke's Clinic Wound and Hyperbarics, Boise, Idaho; Idaho Legal Aid Services; Idaho State Dept, of
Health and Human Services; Idaho Dept, of Health and Welfare, Boise, Idaho;
Charo Rowley (Webster), Social Worker, Court Visitor; some Hospice agencies
practicing in-home Forcible Euthanasia and targeting senior citizens' apartments; and
such other individuals, agencies, associates, and/or assigns who were the Perpetrators.
99. That while my Mother was held in captivity at SLH, I sought help nationwide
from over 200 authorities, and the Governor and the State Attorney General's Office
and the Federal government but no one would help because of my Mother's age, and,
thus, it will happen again because there are no consequences since they have Stateimmunity, and no one is safe in their private home anymore, and the elderly live in fear.
100. That in the case, United States v. Classic, 313 US 299, the Court stated
that § 20 of the Criminal Code, 18 USC § 242 provides a criminal punishment for
anyone who "under color of any law, statute, ordinance, regulation, or custom" subjects
any inhabitant of a State to the deprivation of "any rights, privileges, or immunities
secured or protected by the Constitution or laws of the United States." And, further:

-32-

"the State courts in the several States have been unable to enforce the
criminal laws of their respective States or to suppress the disorders
existing, and in fact that the preservation of life and property in many
sections of the country is beyond the power of the State government, is a
sufficient reason why Congress should, so far as they have authority
under the Constitution, enact the laws necessary for the protection of
citizens of the United States."
101. That my Mother and I had a right to live according to our peaceful and
virtuous religious beliefs and to seek curative medical care by a compassionate
physician, Dr. Katherine Miller, MD,, and for my Mother to enjoy being active in her life
until God was ready for her life to end naturally and peacefully, and the "Right to Life
under God" is guaranteed under the First Amendment of the US Constitution.
102. That in Perna v. Pirozzi, supra, 92 NJ 446, 459-65 (1983), at 347, 461, the
Court reasoned:
"Absent an emergency, patients have the right to determine not only
whether surgery is to be performed on them, but who shall perform it.". . .
"No right is held more sacred, or is more carefully guarded by the common law, than the rigl
person, free from all restraint or interference of others, unless by clear and
unquestionable authority of law."
103. That Human Rights are protected under numerous State, Federal, and
International laws, and, under the US Constitution.
104. That in Monroe v. Pape, 365 US 167, (1961), the Supreme Court stated:
"Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory, subjects, or causes to be
subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other proper proceeding
for redress."
105. That in the case, State v. Wells, the Idaho Supreme Court issued the
Death Penalty to Wells for bludgeoned his victims to death. However, the State of Idaho
-33-

issued the Death Penalty to my Mother without any hearing and without Due Process,
and, thus, with less rights than a convicted criminal. (State v. Wells, 864 P. 2d 1123
(1993), 124 Idaho 836, Idaho: Supreme Court.)
106. That in the case of Living Centers of Texas, Inc. v. Penalver (217 SW 3d
44 (2006), Tex: Court of Appeals, 4th Dist.), the Court stated:
"The defense is that this death is not significant because she is old and
because she is impaired. I disagree. Our society has not regressed to the
point that we tolerate a wrongful death of anybody, of any age, or of any
infirmity . . . The most significant gift we have from God is life itself."
107. That the described wrongful actions committed by the State and SLH, et al.
is similar to the case Gilbert v. State, 487 So. 2d 1185 (1986), Fla: Dist. Court of
Appeals, 4th Dist., wherein the Court gave the definition of the word "feloniously":
" Of, pertaining to, or having, the quality of felony. Proceeding from an
evil heart or purpose; done with a deliberate intention of committing a
crime. Without color of right or excuse. Malignantly; maliciously. Acting
with a felonious intent; i.e., acting with intent to commit a felony.
Euthanasia is not a defense to first degree murder in Florida and this
court has been furnished with no law or statute to the contrary."
108. That in the Matter of Zornow (919 N.Y.S.2d 273, 31 Misc. 3d 450 (2010)
NY: Supreme Court, Monroe), the Court concluded that "nutrition and hydration should
not be withheld from patients . . . [with the excuse that] prolonged care for them may
involve significant costs."
109. That case law shows that death by starvation and dehydration is "painful."
In the Matter of Conroy, 486 A. 2d 1209 (1985), the New Jersey Supreme Court
reasoned that the State's interest is in preserving life. However, in my Mother's case
the State's interest was in forcing her to die and with the Court Visitor's Report/Order in
allegiance with the Montana and Oregon Death with Dignity Act.
-34-

110. That In re Guardianship of Pescinski (67 Wis.2d 4 (1975), 226 NW 2d 180
(1975), Wis: Supreme Court), the Court stated: "An incompetent particularly should
have his [her] own interests protected. Certainly no advantage should be taken of him."
111. That in the case, Cruzan v. Director, Mo. Dept, of Health, 497 US 261
(1990), the Supreme Court reasoned:
"Choices about life and death are profound ones, not susceptible of
resolution by recourse to medical or legal rules. It may be that the best we
can do is to ensure that these choices are made by those who will care
enough about the patient to investigate his or her interests with
particularity and caution. On either explanation, then, the Court's
deference seems ultimately to derive from the premise that chronically
incompetent persons have no constitutionally cognizable interests at all,
and so are not persons within the meaning of the Constitution. Deference
of this sort is patently unconstitutional. It is also dangerous in ways that
may not be immediately apparent."
112. That in the Matter of Conroy, 486 A. 2d 1209 (1985) - NJ: Supreme Court,
the Judge stated: "a necessary prerequisite to surrogate decision-making is a judicial
determination that the patient is incompetent to make the decision for himself and
designation of a guardian for the incompetent patient if he does not already have one."
113. That Frederick ("Fritz") J. Klein, MD, shows at his website that he speaks
"fluent German." The SS Team stated during the kidnapping and repeatedly by doctors
and nurses in the Medical Records that Dr. Klein chose my Mother to be brought to
SLH during his abusive conversation with me in his office, and thereafter, my Mother
was Forcibly Euthanized under the Death Penalty ordered by the State and SLH.
Further, one of the Nazis who was given the Death Penalty at the Nuremberg Trials had
the exact same name, Frederick ("Fritz") J. Klein, MD.

-35-

114. That the State and SLH used the same methods as Nazi Germany during
the Forcible Euthanasia of my Mother, and which was retribution that began when she
was chosen by Dr. Klein on October 13, 2016, and the State of Idaho ordered the
Death Penalty for my Mother, which is the anniversary month of October when the
death penalty of the Nazi leaders was carried out after the Nuremberg Trials.
115. That the nurse of Frederick J. Klein, MD is named T'Rell Pinnock, RN, and
T'Rell is a code that means "Hitler Design."
116. That the State and SLH Euthanasia Program violates the US Constitution
Bill of Rights and is an Invasion of Privacy and is Domestic Terrorism, and is
anti-American Human Rights violations, and follows the system established by Hitler in
commanding the doctors in his illegal medical actions (code named T4, symbolizing the
4-letter tetragram code name of Hitler, TREL) described in detail in the transcript of the
Nuremberg Trials, vol. 1 and 2, which included a film showing the atrocities of starvation
and withdrawal of water and experimentation, et al. As a result, the Nuremberg Code
was established in 1947, along with the United Nations Universal Declaration of Human
Rights to guide all nations worldwide with ethical virtues.
117. That Lorenda Knight, the State APS, Adult Protection Worker, made her
last name from the Nazi terrorist SS Protection Squad's name for Hitler: "Knight."
118. That the United States and all members of the United Nations are parties
to the Statute of the International Court of Justice ("ICJ Statute"), Flores, 414 F.3d at
250; see, e.g., United States v. Yousef, 327 F.3d 56, 100-01 (2d Cir.2003). In the case,
Abdullahi v. Pfizer, Inc., 562 F. 3d 163 (2009), the court reasoned: "the customary

-36-

international law prohibits among other things, involuntary medical experimentation on
humans . . . without their consent or knowledge . . .
118.1. The Nuremberg Trials judgment concluded that "manifestly human
experiments under such conditions are contrary to the principles of the law of nations
as they result from usages established among civilized peoples, from the laws of
humanity, and from the dictates of public conscience
118.2. The American tribunal's conclusion was that "an action that contravened
the Code's first principle constituted a crime against humanity and is a clear indication
of the international legal significance of the prohibition on nonconsensual medical
experimentation
118.3. As Justices of the Supreme Court have recognized, "the medical trials at
Nuremberg in 1947 deeply impressed upon the world that experimentation with
unknowing human subjects is morally and legally unacceptable."
118.4. United States v. Stanley, 483 U.S. 669, 687, 107 S.Ct. 3054, 97 L.Ed.2d
550 (1987). . . "the universal and fundamental rights of human beings identified by
Nuremberg - rights against genocide, enslavement, and other inhumane acts - are the
direct ancestors of the universal and fundamental norms recognized as just cogent,"
from which no derogation is permitted, irrespective of the consent or practice of a given
State." [Siderman de Blake v. Republic of Arg., 965 F.2d 699, 715 (9th Cir.1992)
(cited in Sampson v. F.R.G., 250 F.3d 1145, 1150 (7th Cir.2001), also see, Nuremberg
Trials, vols. I and II transcript and the DVD, "Nazi Concentration Camps" the film shown
at the Nuremberg Trials.]

-37-

119. That the State of Idaho is a "closed" government wherein the records about
the citizens are kept sealed and requires expensive litigation in the courts to obtain
records, and which has allowed the massive growth of totalitarian fascism, and, the
danger is that it is hidden deep in the government within the government, and making
themselves known only when one becomes the unsuspecting victim of their extremist
beliefs in genocide, racism, and physician-assisted suicide and forcible euthanasia.
120. That in the Matter of Brownstein v. Morris, 25 Misc. 2d 731 (1960), NY, the
Supreme Court stated "The court may not close its eyes to the fact that the Nazi
movement is being sponsored in many parts of this country."
121. That the Nazi Germany doctors began their Euthanasia Program, T4
(code for TREL, Hitler) with disabled children being starved with "little or nothing to eat"
and then used Opiod narcotics as their drug of choice to Forcibly Euthanize the victims
and expanded T4 to adults held captive secretly at their psychiatric hospitals, and who
were chosen based on their religion, along with those who were homosexuals, disabled
and those with dementia, and others prejudged unfit to live. The T4 was successful
since "no" one did anything to stop them while it spread across nations in Europe, and
by the end of World War II, over four million innocent souls had been Forcibly
Euthanized according to the transcript of the Nuremberg Trials. Four Million
122. That after the Forcible Euthanasia at SLH, Lorenda Knight closed and
sealed the State's APS case with the conclusion "Risk Reduced."
123. That this is the first documented case of Forcible Euthanasia in America
since it was written in the Medical Records of SLH. And there will be more nationwide if
their success is allowed to continue without any concern nor any consequences.
-38-

124. That Ms. Charo Rowley did not attend the hearing and did not respond to
any of the court proceedings and was defended and supported by all appellate Courts.
125. My Precious Mother taught me the cause and cure of Alzheimer's disease.
She was the evidence, and now I must try to convince ethical researchers what my
Mother has taught us about this disease and the magnificent human brain functions
and its ability to heal with the virtues of reason, courage, justice, self-discipline
patience, empathy, and compassion. I gave every effort humanly possible in the loving
care for my precious Mother. We had a magnificent life together and she said that she
loves God and she loves me, and, I will Forever Love God and my Precious Mother.

REASONS FOR GRANTING THE PETITION
1. That the Idaho Courts denied the fairness and justice of Due Process when
my pro se pleadings were not reviewed and were summarily dismissed while the judges
acted as attorneys in the Respondent's defense and with legal strategy, and with
disregard to the Respondent's refusal to attend the hearing nor to answer in any way,
and, thus, the Idaho Court decided the issues not in accord with applicable decisions of
this United States Supreme Court. [See, the United States Supreme Court, Louie M.
Schexnayder, Jr. v. Darrel Vannoy, Warden, 589 US__(2019)]
2. That the State of Idaho demanding Hospice as "mandatory" under threat of
charging me with a "Felony" and enforced by violent martial law and kidnapping
"healthy" family members from home, while the Federal Statutes clearly state that
Hospice is "Optional" and may be withdrawn at any time, violates the US Constitution.

-39-

3. That in-home Hospice, funded under US Medicare, is being used in the State
of Idaho, Montana, and Oregon for covert Forcible Euthanasia in a physician-assisted
surrogate suicide movement that has massive roots and is spreading nationwide.
4. That Respondent Charo Rowley's Court Visitor Report/Supplemental Order,
which supported the State of Idaho in completing the Death Penalty of my Mother,
being unconstitutional and illegal under Federal, State, and County laws, precludes Ms.
Rowley's payment for services rendered.
5. That the financially poor are treated differently than others, and, thus,
Economic Discrimination the last frontier of the Bill of Rights to be discovered.
6. That the measure of the value of one's life is not by the amount of money, but
by the amount of Wisdom Virtues. Our legal system is closed to the common people
and as long as Economic Discrimination is practiced by the legal system, there will be
no Wisdom Justice and the scale's measure of unequal justice is reflected in the
unresolved issues of wild society while the quest to be the alpha rules.

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
Date: May 1,2021
Rev. Cherie Phillips, Stoic Priest
1926 Madera St., Apt. 209
Waukesha, Wl 53189
(262) 309-6178
-40-

